FDIC’s Virtual Supervisory Information on the Net (ViSION) Application

(Report No. 04-027, July 30, 2004)

Summary

The Federal Deposit Insurance Corporation’s (FDIC) Virtual Supervisory Information on
the Net (ViSION) application was designed to accept and provide information from and
for the FDIC and other federal and state regulators in support of day-to-day operations.
ViSION contains information on all insured depository institutions. Users rely on
ViSION as a central repository for compiling, reviewing, analyzing, and managing
financial, examination, and other data on financial institutions. The ViSION user
community includes FDIC executives, regional managers, case managers, review
examiners, field examiners, Division of Insurance and Research analysts, and federal
(Board of Governors of the Federal Reserve System, Office of the Comptroller of the
Currency, and Office of Thrift Supervision) and state regulatory agencies.

The FDIC’s Office of Inspector General has concluded an audit of the ViSION
application. The audit objective was to determine whether the application controls over
ViSION operational components were adequate. Specifically, using the guidance in the
National Institute of Standards and Technology (NIST) Draft Special Publication (SP)
800-53, Recommended Security Controls for Federal Information Systems, dated October
2003, we evaluated key management, operational, and technical controls to determine
whether they were sufficient to protect the confidentiality, integrity, and availability of
the information maintained in ViSION.

We concluded that, in general, the technical controls incorporated into ViSION provided
adequate assurance that (1) it allowed only authorized user access, (2) approved access to
specific information in ViSION was based on need, and (3) the data had to pass
predetermined edit checks before it was accepted by the system. However, ViSION
application management and operational controls needed improvement.

Recommendations

We recommended that the Corporation develop, update, and implement key management
and operational controls to protect the confidentiality, integrity, and availability of the
information contained in the ViSION application.

Management Response

The Corporation’s response adequately addressed our recommendations. The
recommendations are considered resolved but will remain undispositioned and open until
we have determined that agreed-to corrective actions are implemented and effective.

This report addresses issues associated with information security. Accordingly, we have
not made, nor do we intend to make, public release of the specific contents of the report.
